                                                      IG-02-017




AUDIT
                           MANAGEMENT OF RESEARCH GRANTS AND
REPORT                          COOPERATIVE AGREEMENTS

                                       June 4, 2002




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits at:

     Assistant Inspector General for Audits
     Code W
     NASA Headquarters
     Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CFO            Chief Financial Officer
FMM            Financial Management Manual
NPG            NASA Procedures and Guidelines
SF             Standard Form
                                     June 4, 2002
W


TO:           Distribution

FROM:         HQ/W/Assistant Inspector General for Audits

SUBJECT:      Final Report on Management of Research Grants and
              Cooperative Agreements
              Assignment Number A-00-042-00
              Report Number IG-02-017


Enclosed please find the subject final report. Please refer to the Executive Summary for
the overall audit results. Our evaluation of your response has been incorporated into the
body of the report. We consider management’s proposed, corrective actions responsive
for all the recommendations. The recommendations will remain open for reporting
purposes until corrective actions are completed. Please notify us when actions have been
completed on the recommendations, including the extent of testing performed to ensure
corrective actions are effective. The final report distribution is in Appendix E.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Mr. Chester A. Sipsock, Program Director,
Financial Audits, Management and Oversight, at (216) 433-8960, or Lynette A. Westfall,
Audit-in-Charge, at (216) 433-8964.




Alan J. Lamoreaux

Enclosure

Distribution:
HQ/AS/Chief Scientist
HQ/B/Acting Chief Financial Officer
HQ/H/Assistant Administrator for Procurement
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
MSFC/DAO1/Director, George C. Marshall Space Flight Center
cc:
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/HC/Director, Analysis Division
HQ/HK/Director, Contract Management Division
HQ/JM/Director, Management Assessment Division
HQ/M/Associate Administrator for Space Flight
HQ/R/Associate Administrator for Aerospace Technology
HQ/S/Associate Administrator for Space Science
HQ/U/Associate Administrator for Biological and Physical Research
HQ/Y/Associate Administrator for Earth Science
GSFC/100/Director, Goddard Space Flight Center
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Use of Peer Reviews in Awarding Unsolicited
                Research Grants, 2

     Finding B. Documenting Peer Review and Civil Rights
                Requirements, 5

     Finding C. Grantee Financial Reporting, 10

Appendix A – Objectives, Scope, and Methodology, 16

Appendix B – Research Grants and Cooperative Agreements
             Not Peer Reviewed, 19

Appendix C – Prior Audit Coverage, 20

Appendix D – Management’s Response, 22

Appendix E – Report Distribution, 27
                            NASA Office of Inspector General

IG-02-017                                                                             June 4, 2002
 A-00-042-00


           Management of Research Grants and Cooperative Agreements

                                      Executive Summary


Background. In carrying out its scientific mission, NASA awards grants1 and
cooperative agreements,2 hereafter collectedly referred to as grants, to universities and
non-profit entities for funding basic and applied research.3 One of NASA’s goals is to
select and award research in a manner that ensures both broad participation and a high
degree of quality.4 NASA promotes this goal primarily through a process that combines
full and open competition5 and peer reviews.6

Under the auspices of a university or a non-profit entity, researchers submit solicited
proposals7 to NASA in response to the broad announcements for research proposals.
NASA is required to perform peer reviews for the solicited proposals and competitively
awards grants for those proposals.8 In some cases, researchers submit unsolicited


1
  NASA Procedures and Guidelines (NPG) 5800.1, “Grant and Cooperative Agreement Handbook,”
(hereafter referred to as the Grant Handbook) states that a research grant shall be used to accomplish a
NASA objective through stimulating the acquisition of knowledge of the subject under study or attempting
to determine the potential of scientific discoveries or improvements in technology, materials, processes,
methods, devices, or techniques and advance the state of the art. The grantee will generally conduct the
research without assistance from NASA and will provide a final product, usually a report.
2
  The Grant Handbook states that a cooperative agreement shall be used when the principal purpose is to
transfer something of value to the grantee to accomplish a public purpose of support or stimulation
authorized by Federal statute, where substantial involvement is anticipated between NASA and the grantee.
3
  NASA conducts research in Earth science, space science, life and microgravity sciences and applications,
and aeronautics and space transportation technology.
4
  The results of this research can become the impetus for change in Federal policies, regulations, and
programs. Thus, the Congress and the public rely on Federal agencies to fund and conduct research that
produces high-quality results.
5
  Federal Acquisition Regulation, Subchapter B, Part 6, states that under full and open competition all
responsible sources are permitted to compete.
6
  One or more qualified members of the scientific and technical community, who are independent from the
research proposal, objectively reviews the proposals to ensure the merit, quality, and integrity of proposed
research.
7
  A solicited proposal is a written proposal submitted by researchers in response to NASA’s formal or
informal announcement or solicitation for research.
8
  The NASA Office of Inspector General is conducting an inspection, G-02-010, entitled, “Review of JPL
[Jet Propulsion Laboratory] Peer Review Evaluation Process.” The objective of this inspection is to
determine whether the JPL peer review process is consistent with NASA and other Government peer
review standards for scientific research and development programs.
proposals9 for research that is not in response to a specific announcement. A grant
resulting from an unsolicited proposal is not competitively awarded. NASA evaluates
unsolicited proposals by performing either a peer review or a technical/merit review.10 A
technical/merit review, however, may lack the objectivity and fairness that are the
trademarks of the peer review process11 and may not provide the same level of assurance
that the research is the highest quality and best choice compared to other research being
considered.

At the end of fiscal year 2000, NASA had 7,961 active grants valued at about $4.8
billion. The three Centers12 included in our audit accounted for 76 percent or 6,065 of
the active grants and 73 percent or about $3.5 billion (as of September 30, 2000) of the
total dollar value.

Objectives. The audit objectives were to determine whether NASA appropriately
performed peer reviews before awarding research grants and cooperative agreements and
complied with key requirements for the solicitation, award, and financial management of
research grants and cooperative agreements. Appendix A contains the details on the
audit objectives, scope, and methodology.

Results of Audit. NASA appropriately performed peer reviews on 100 percent of the
solicited proposals for the sampled grants prior to award as required by NASA policy.13
However, NASA does not similarly require a peer review for unsolicited proposals for
grants prior to award. Thus, while 25 (61 percent) of the 41 unsolicited proposals that we
sampled were peer reviewed before being awarded, the remaining 16 (39 percent)
received only technical/merit reviews. Using peer reviews Agencywide for all research
proposals would help ensure that unsolicited research proposals are awarded objectively
and fairly (see Finding A).

Generally, NASA complied with the key requirements for the solicitation and award of
grants. However, NASA should improve controls for documenting (1) in the grant files
that a peer review was performed and (2) that the grantees were in compliance with civil
rights requirements.14 Without proper documentation, the grant files do not provide a


9
 An unsolicited proposal is a written proposal submitted by researchers to NASA for the purpose of
supporting research and is not in response to a formal Agency announcement to solicit research proposals.
10
   Usually one person within the program office that has the most knowledge of the proposed research
performs a review of the feasibility of the proposed work and the applicability to Agency goals and costs.
The reviewer usually serves as the technical monitor if the proposal is awarded.
11
   The goals of a peer review are to: determine the quality, relevance, and value of the proposed work;
identify research work most likely to succeed; investigate relative merits of similar work proposed by
competing groups; and demonstrate that the Agency achieves balance and fairness in making its scientific
and technical decisions by involving the scientific community in the selection process.
12
   We performed work at three NASA Centers – the John H. Glenn Research Center at Lewis Field (Glenn),
Goddard Space Flight Center (Goddard), and George C. Marshall Space Flight Center (Marshall).
13
   NASA performed peer reviews on 83 solicited and 25 unsolicited proposals we sampled.
14
   Grantees are required to annually certify that they are in compliance with Federal civil rights statutes.
The civil rights requirements protect constitutional rights in public facilities and public education and

                                                     ii
reasonable justification for the grant award and NASA cannot ensure that awards are in
compliance with Federal civil rights requirements (see Finding B).

In the past, NASA had experienced problems in receiving grantee financial reports in a
timely manner.15 This problem continues; 79 (89 percent) of 89 sampled grantees16 that
were required to submit financial reports experienced some type of reporting problem.
NASA should have suspended advance funding for 52 (58 percent) sampled grantees in
accordance with Agency policy; however, NASA suspended advance funding for only 5
of the grantees. Without timely financial information from the grantee, NASA does not
have reliable information for decisionmaking and cannot accurately record financial data
in a timely manner (see Finding C).

Recommendations. NASA should obtain peer reviews for all unsolicited proposals prior
to award, unless the Chief Scientist approves a written waiver in advance of award.
NASA should also make its existing policies on documentation of the grant files more
specific and consistent with Federal and NASA requirements on maintaining peer review
documentation in the grant file. Marshall and Glenn should establish a process to ensure
compliance with civil rights requirements. Lastly, NASA should improve the timeliness
of the grantees’ financial reporting and revise the Grant Handbook to reflect the Financial
Management Manual (FMM) requirements.

Management's Response. NASA concurred with the recommendations to implement
and document a process at Marshall and Glenn for ensuring civil rights compliance and
improve the timely receipt of grantee’s financial reporting. Although NASA agreed to
revise NASA policy to require that all solicited and unsolicited proposals be peer
reviewed, management reserved the right to coordinate its actions with the newly
appointed Chief Scientist, who has not yet reviewed the issues. NASA agreed that the
grant file should clearly show that a peer review was performed and agreed to review and
revise applicable guidance to ensure a common policy throughout NASA. Finally,
NASA concurred with the recommendation that the Grant Handbook and the FMM
should be consistent in addressing the remedial actions for late grantee reporting.
However, rather than revise the Grant Handbook to reflect the existing FMM policy,
management agreed instead to conduct a detailed review of the Grant Handbook and the
FMM policy to determine how these two documents should best be made consistent.




prohibit discrimination in the private and Federal workplace on the basis of race, color, national origin,
age, sex, religion, or handicap.
15
   Appendix C provides details of prior reports on this problem area.
16
   NASA requires that a grantee submit only one financial report for all active grants. Within our sample,
NASA awarded 124 grants to 89 different grantees.

                                                     iii
Evaluation of Management's Response. We consider NASA’s comments and planned
actions responsive to resolve each recommendation. If the peer review documentation
will be maintained outside the grant file, the grant file should clearly indicate whether a
peer review was performed and provide a cross-reference to where that documentation
can be located within the Agency. In relation to late grantee financial reporting, we
request that management provide the Office of Inspector General with the results of its
analysis of the Grant Handbook and the FMM policy in making a final determination on
the consistency issue related to these two documents.




                                             iv
Introduction

To help ensure the quality and integrity of research, the science community traditionally
has relied on independent reviews of research proposals by peers. Peer reviews consist
of an evaluation by one or more persons who are members of the scientific and technical
community and are considered qualified to provide an independent, objective assessment
of the merits of the proposed work. Peer reviewers provide their individual evaluations
and comments to NASA, which develops an overall rating that it uses in determining
which research will be funded. The goals of a peer review are to: determine the quality,
relevance, and value of the proposed work; identify research work most likely to succeed;
investigate relative merits of similar work proposed by competing groups; and
demonstrate that the Agency achieves balance and fairness in making its scientific and
technical decisions by involving the scientific community in the selection process.

Unsolicited proposals are subject to either a peer review or a technical/merit review. An
individual within the technical office responsible for the work performs the
technical/merit review. The technical/merit review usually assesses the feasibility of the
proposed work and the applicability to Agency goals and costs. Such reviews, however,
may lack the objectivity and fairness that are the trademark of the peer review process
and may not provide the same level of assurance that the research is the highest quality
and best choice compared to other research being considered.

After the NASA technical or program office selects the grantee, the Center’s grants
office, within the procurement office, awards and administers the grant and maintains the
grant file, and the technical office monitors progress. The Agency requires grantees to
submit financial reports to the Center’s Financial Management Office, which uses the
data to monitor the grantee’s financial transactions, process payments, and update NASA
accounting and financial records.
Findings and Recommendations

Finding A. Use of Peer Reviews in Awarding Unsolicited Research
           Grants

NASA did not always perform peer reviews on unsolicited proposals for research grants
because NASA did not have a requirement that all unsolicited proposals be peer reviewed
prior to awarding grants. For example, 16 (39 percent) of the 41 unsolicited proposals
we reviewed had not been peer reviewed. By formalizing the peer review requirement
for unsolicited proposals Agencywide, NASA would help ensure the objectivity and
fairness associated with the peer review process when evaluating unsolicited research
proposals.

Peer Reviews of Research Proposals

NASA policy on peer review is in the “Science in Air and Space: NASA’s Science
Policy Guide.” 17 The NASA Science Policy Guide defines a peer review as an
evaluation by persons independent from the work, within and outside NASA, who are
members of the scientific and technical community and are considered qualified to
provide an independent, objective assessment of the merits of the research being
proposed. NASA’s “Guidance for the Preparation and Submission of Unsolicited
Proposals” states that some proposals are reviewed entirely in-house, others are evaluated
by a combination of in-house personnel and selected external reviewers, while still others
are subject to a full external peer review either by mail or through assembled panels. In
addition, the Grant Handbook, section 1260.11, states that technical evaluation of
proposals will be conducted by the technical/program office and may be based on peer
reviews.18

The importance that NASA places on competitively awarding and peer reviewing grants
is emphasized by the performance target19 that NASA has included in its annual
Performance Plan to the Congress for 1999, 2000, and 2001. The target requires the
Office of Space Science, Office of Biological and Physical Research, and Office of Earth
Science, three of the Agency’s five Enterprises,20 to competitively award 80 percent or




17
   NASA’s Chief Scientist issued the Guide in July 1996.
18
   The White House Office of Science and Technology Policy has directed agencies to “. . . Significantly
enhance the utilization of merit review with peer evaluation and competitive selection in Federal R&D
[Research and Development] projects.”
19
   Performance target is the term NASA uses in the Performance Plan for those measures or metrics that
were established to accomplish (and measure) the individual goals and objectives. Target, as used in this
report, generally equates to the terms “measure” or “indicator” as used in the Government Performance and
Results Act.
20
   NASA established five strategic Enterprises to function as primary business areas for implementing
NASA’s mission and serving its customers. The other two Enterprises are the Office of Space Flight and
Office of Aerospace Technology.

                                                   2
more of the research dollars based on peer reviews.21 However, the target does not
include other offices such as the Office of Space Flight and the Office of Aerospace
Technology, which also award research grants.

NASA does not have Agencywide requirements that address the peer review of
unsolicited proposals. However, at least three Enterprises have recognized the
importance of performing peer reviews for unsolicited research proposals. For example,
the Office of Earth Science has a written policy that requires a peer review of all
proposed research, solicited and unsolicited. Also, the NASA Chief Scientist stated that
the Office of Biological and Physical Research and the Office of Space Science have
adopted informal policies requiring that all research proposals, both solicited and
unsolicited, be subjected to a peer review.

Status of Peer Reviews

To evaluate the extent to which peer reviews were performed, we reviewed 124 research
grants from the 4,97022 total active grants categorized as research at Goddard, Marshall,
and Glenn (see Appendix A). Our analysis showed that 83 (67 percent) of the 124
research grants were based on solicited proposals and were peer reviewed as required by
NASA policy. Of the 41 unsolicited proposals awarded, 16 (39 percent) were not peer
reviewed (see Appendix B). Further, 7 (44 percent) of the 16 grants were awarded by 2
Enterprises that had internal requirements to peer review all unsolicited proposals.

All 16 unsolicited proposals received a technical/merit review by internal NASA
personnel within the responsible program office. In most cases, someone within the
selecting office who worked with the subject matter covered by the proposal performed
the technical/merit reviews. While this familiarity with the subject matter is beneficial,
the fact that the reviewer can also serve as the technical monitor23 or be involved in the
grant work can create the appearance of an organizational conflict of interest or can
create an appearance of preferential treatment in awarding the grant. To improve the
selection process for unsolicited proposals, we believe that peer reviews should be
performed whenever possible.

Factors Limiting Peer Reviews

The primary reason for the lack of peer reviews for the 16 unsolicited proposals was that
NASA has no Agencywide requirement that such proposals receive peer reviews prior to
award. Lacking this requirement, some NASA Enterprises chose not to perform peer
reviews. For example, eight proposals not peer reviewed involved the Office of
Aerospace Technology, and one proposal involved the Office of Space Flight. Neither

21
   Under the Government Performance and Results Act, NASA must have an annual performance plan
containing planned performance objectives and targets to achieve its strategic goals and mission. NASA’s
Performance Report for 1999 and 2000 showed that this target was met. However, we did not evaluate the
target or the reported performance for those fiscal years to validate that NASA met the target.
22
   This was the number of active grants as of March 30, 2000.
23
   A technical monitor reviews the technical requirements and progress of the grant.

                                                   3
Enterprise had a formal policy to peer review unsolicited research proposals. Six
proposals involved the Office of Earth Science, which had a written policy requiring that
peer reviews be performed for all unsolicited proposals. However, the required peer
reviews were not performed because the Goddard program personnel administering the
grants either were not aware of the Enterprise’s internal requirement or decided that a
peer review did not apply to the particular proposal. Finally, one proposal not peer
reviewed involved the Office of Space Science, which had an informal policy to peer
review all unsolicited proposals.

NASA’s Chief Scientist stated that peer reviews should be more broadly applied
throughout NASA, not only to science areas but also to technology and applications
research. The Chief Scientist plans to revise the Science Policy to more broadly
implement peer reviews. We support and encourage such action because it is in NASA’s
best interests to peer review all solicited and unsolicited proposals.

Conclusion

Although NASA appropriately peer reviewed all solicited grant proposals, it did not
require that all unsolicited proposals be peer reviewed. To help ensure objectivity and
fairness in the grants process, NASA should revise its current policy to require peer
reviews of all grant proposals, both solicited and unsolicited.

Recommendation for Corrective Action

1. The NASA Chief Scientist should revise the NASA Science Policy Guide to require
   that all solicited and unsolicited research proposals be peer reviewed prior to
   award, unless a written justification or waiver is approved by the Chief Scientist.

Management's Response. Partially concur. The NASA Chief Scientist will revise the
NASA Science Policy Guide in regard to the use of peer reviews for both solicited and
unsolicited research proposals. It is anticipated that the revision to the Guide will
reference potential exceptions, such as the types of proposals for which peer review is
generally not considered appropriate. The revision will also delineate a waiver process,
including delegation of waiver responsibilities. The estimated date for completion of this
revision is March 31, 2003. In light of NASA’s recent appointment for the position of
Chief Scientist, NASA’s response is conditional upon the new Chief Scientist’s review of
the issues.

Evaluation of Management's Response. Management's planned actions are responsive
to the recommendation. An Agencywide policy should mandate peer reviews to evaluate
all grant proposals, no matter which NASA office or Center awards the grant.
Additionally, the policy should clearly state the criteria for a waiver accomplished in
advance and ensure that waivers are the limited exception to the policy. The
recommendation is resolved but will remain undispositioned and open until the corrective
actions are completed.


                                            4
Finding B. Documenting Peer Review and Civil Rights Requirements

Grant files did not contain sufficient information necessary to independently verify that
grants were peer reviewed. For example, none of the grant files for 108 sampled grants
that were peer reviewed had adequate documentation to describe the peer review process
used and the results. Although we selectively verified that the program office files
contained peer review documentation, this documentation was not included in the grant
files. In addition, the Glenn and Marshall financial management offices have no
documented assurance of civil rights compliance24 for 13 (37 percent) of 35 grants
sampled. These conditions occurred because the Grant Handbook did not specify peer
review documentation required by the grant officer, and the Centers did not have a
process to ensure implementation of Grant Handbook requirements. Without proper
documentation, the grant files do not justify the grant awards and do not ensure that
awards are in compliance with Federal civil rights requirements.

Peer Review Documentation

Documentation Requirements. Two NASA policies address documenting peer reviews,
the Grant Handbook and NASA Procedures and Guidelines (NPG) 1441.1C, “NASA
Records Retention Schedule 7, Program Formulation Records.” Grant officers follow
policy in the Grant Handbook to process grants. Section 1260.11 of the Handbook
requires the program office’s selecting official to furnish any peer review information
requested by the grant officer for grants that are competitively selected and awarded.
The Handbook, however, does not specify the documentation that should be obtained for
the grant file. For grants that are noncompetitively selected, the Handbook also requires
the selecting official to provide a written “Justification for Acceptance of an Unsolicited
Proposal” for the grant officer’s review and approval. However, the Handbook does not
address how the completed peer review should be described in the written justification or
the specific peer review documentation that should support the grant selection.

NPG 1441.1C describes maintaining records for storage. The NPG specifies the
documents and records that should be maintained, by whom, and where, and the retention
period. Section 7 of the NPG covers research and peer review records and requires that
internal and external peer review reports and accepted proposal evaluations be filed in the
related grant file. However, the policy does not describe a peer review report, and we did
not find such a report in the program office’s peer review files or in the grant office files
that we reviewed.




24
 The grantees can submit NASA Form 1206, “Assurance of Compliance with the National Aeronautics
and Space Administration Regulations Pursuant to Nondiscrimination in Federally Assisted Programs,” as
documentation of compliance with the civil rights requirements.

                                                   5
Because NASA’s guidance was not specific, we established the following as criteria in
performing our review to represent the types of documentation needed, at a minimum, to
adequately describe the peer review process:

   •   Information (such as names, titles, and organizations and signed statements of
       non-conflict of interest) to show that the peer review panel was qualified and
       independent.

   •   Information on each reviewer’s rating/evaluation of the proposal’s technical merit
       and potential to succeed. Individual ratings should support that the overall
       rating/evaluation was reasonable and consistent.

   •   A copy of the final, overall rating/evaluation supporting the selection including a
       statement that justifies the rating.

Status of Grant File Documentation. None of the grant files for the 108 sampled grants
that were peer reviewed contained the peer review documentation required by NPG
1441.1C or the type of documentation we considered adequate support for the award.
Some grant files for grants that were peer reviewed did not contain any documentation of
the review. Other grant files contained documentation that only referenced that peer
reviews were accomplished. For example, we found award letters to the grantees stating
that the proposal was peer reviewed and selected to be funded by NASA. Still other files
contained a brief peer review summary that indicated the overall peer review numerical
rating and concluded that the proposal should be funded. This information and other
documentation in the grant file did not provide enough detail to provide an understanding
of how the peer review was done and to verify that it was an adequate basis for selecting
and funding the grant. We selectively verified that the program office files contained
peer review documentation; however, this documentation was not included in the grant
files.

Reasons for Documentation Problems. The primary reason the grant files did not have
adequate peer review documentation is that the Grant Handbook does not contain clear
guidance on the specific peer review documentation that should be in the grant file.
Also, the Handbook does not explain why it is important to have peer review
documentation in the grant file and how it should be used. Finally, the Handbook does
not reference NPG 1441.1C requirements related to retention of grant files and peer
review documentation.

Need for Good Documentation. The lack of clear guidance in the Grant Handbook and
the incomplete peer review documentation in the grant files prevent them from being
used and relied on as the official source of support and justification for the award.
Reviewers of the grant files cannot reasonably determine whether peer reviews were
performed or the adequacy of the review and the award decision. We believe the grant
file should serve not only as the source of information for administering the grant but
also as the official source of information relating to proposal review and grant selection.


                                             6
Civil Rights Certification

Glenn and Marshall did not have documented assurance of civil rights compliance for the
grants that we sampled. For example, neither the grant files nor the grants offices had a
valid civil rights certification25 for 9 (45 percent) of the 20 grants we reviewed at Glenn
and for 4 (27 percent) of the 1526 grants at Marshall. Because the two Centers did not
have a process in place to ensure compliance with Federal and NASA civil rights
requirements, Glenn and Marshall may not be in compliance with those requirements.

Federal and Agency Requirements. As a condition of receiving NASA funding,
grantees must certify in writing that they meet several Federal requirements, one of
which is compliance with civil rights and related laws. Title VI of the Civil Rights Act of
1964, Title IX of the Education Amendments of 1972, Section 504 of the Rehabilitation
Act of 1973, and the Age Discrimination Act of 1975 require that grantees involved in
Federal assistance programs should not discriminate. NASA implemented these Federal
regulations in Title 14 of the Code of Federal Regulations, parts 1250 through 1253.
Title 14 requires that (1) no person shall be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under any program or activity receiving
NASA financial assistance; (2) NASA officials shall specify the form of assurances
required; and (3) NASA officials shall specify and designate the type of civil rights
information that the grantee is to maintain and submit to NASA. In addition, the Grant
Handbook, section 1260.10, requires the grant officer to ensure that documentation on all
necessary certifications has been obtained prior to awarding a grant and that the grantee
submit an annual certification showing compliance with the civil rights regulations.

Best Practice. Goddard grant files had civil rights certifications for all the grants we
reviewed. The Goddard grants office implemented a process to obtain, review, verify,
and centrally maintain the civil rights certifications.

The Goddard process requires the grant officer to:

        •    send notification letters to the grantees to submit the annual certification,
        •    file the annual certifications in a central location,
        •    verify that an updated civil rights certification is on file before awarding a
             grant, and
        •    complete and file a checklist that indicates the civil rights requirements were
             met.

Effect on NASA. Without an adequate process to document that the civil rights
requirements are met, Glenn and Marshall cannot ensure that they are in compliance with
Federal and NASA requirements. Therefore, NASA may be unnecessarily at risk from
potential noncompliance or adverse publicity.

25
  See footnote 14.
26
  We sampled 16 grants at Marshall but found that 1 grant was not for research and omitted it from our
review.

                                                    7
Recommendations for Corrective Action

2. The Assistant Administrator for Procurement should revise the Grant Handbook
   to:

            •   provide clear guidance on the specific peer review documentation the
                grant officer should request from the program office for each grant,

            •   require that peer review documentation be filed in the respective grant
                file, and

            •   reference NPG 1441.1C as a related policy.

Management's Response. Partially concur. The Assistant Administrator for
Procurement agrees that the NASA Grant and Cooperative Agreement Handbook should
provide clear guidance regarding documentation to be contained in each grant file with
respect to peer review. NASA agrees that the Grant Handbook, NPG 1441.1C, and
operational practices need to be consistent. The Office of Procurement will review these
areas, develop a common policy and approach, and revise the applicable guidance.
Appropriate guidance will also be issued to the Center grant offices and programmatic
community. An estimated date for completion of these actions is January 31, 2003.

Evaluation of Management's Response. NASA's planned actions are responsive to the
recommendation. We reaffirm that sufficient documentation needs to be contained in the
grant file to adequately demonstrate that a peer review was performed and the overall
peer review result. Corrective actions should include ensuring that the grant file clearly
indicates whether a peer review was performed and provides a cross-reference to where
that documentation can be located within the Agency. The recommendation is resolved
but will remain undispositioned and open until corrective actions are completed.

3. The Director, Glenn Research Center should establish a process to ensure that
   the Centers properly document compliance with the Grant Handbook’s civil
   rights requirements.

4. The Director, Marshall Space Flight Center should establish a process to ensure
   that the Centers properly document compliance with the Grant Handbook’s
   civil rights requirements.

Management's Response. Concur. NASA Grant Notice 00-03, dated October 26, 2001,
clarified and simplified the procedure for obtaining civil rights documentation. It
requires that each funding application contain assurances on NASA Form 1206,27 or
specifically identify and make reference to an assurance that the recipient's programs and
activities comply with civil rights and nondiscrimination statutes specified in the Federal


27
     See footnote 24.

                                               8
regulations. The assurances provided on NASA Form 1206 shall suffice for all proposals
of an applicant, if they remain current and accurate. An applicant may incorporate these
assurances by reference in subsequent applications to NASA.

The Centers have established processes to ensure compliance with this policy, as revised.
No further action is required at this time.

Evaluation of Management's Response. Management's actions are responsive to the
recommendations. We reviewed the Grant Notice and both Centers’ written processes
for ensuring compliance with civil right regulations and are satisfied that corrective
actions are responsive to the recommendations. The recommendations are resolved and
closed.




                                            9
Finding C. Grantee Financial Reporting

Grantees did not provide timely financial reporting, and NASA did not take appropriate
action to suspend the grantee advanced funding. For example, for the fiscal year ended
September 30, 2000, 52 (58 percent) of the 89 grantees included in our review at
Goddard, Marshall, and Glenn submitted 2 or more late Standard Forms (SF’s) 272,
“Federal Cash Transactions Report,”28 and as a result, should have had their advance
financing temporarily suspended. However, NASA took remedial actions for only five
grantees. Failure to actively enforce the reporting requirements and take effective
remedial action has been a recurring problem since at least 1996 and is due to inadequate
Agency controls and insufficient management of the financial reporting process.
Consequently, NASA had not adequately monitored financial aspects of the grants or
maintained Agency financial records in a timely and accurate manner.

Agency Policies and Procedures

The NASA Financial Management Manual (FMM) specifies the financial reporting
requirements for the SF 272. Both the FMM, section 9280-2, and the NASA Grant
Handbook, section 1260, require the grantee29 to submit an SF 272 report to the Financial
Management Office of the NASA Center that issued the grant. The grantee must submit
the SF 272 report within 15 working days following the end of each Federal fiscal
quarter. In addition, grantees are required to submit an SF 272 report as a condition of
receiving advance payments.30

The Grant Handbook Section 1260 and the FMM provide guidance for addressing
untimely SF 272 reports from grantees. Section 1260.76(e) states that NASA may
suspend or terminate advance payments for grantees that do not comply with reporting
requirements. Under section 1260.162(a), NASA may wholly or in part suspend or
terminate the current award. Further, NASA may withhold future awards to the grantee
pending correction of the reporting deficiency. FMM Section 9280-9 directs the
applicable Financial Management Office to temporarily suspend advance financing when
two successive quarterly reports are late or when two reports are late within a fiscal year.

Section 9011-6b of the FMM states that the Center’s Deputy Chief Financial Officer for
Finance is responsible for application of the provisions of the FMM, under the functional
direction of the NASA Headquarters’ Financial Management Division Director. In
addition, FMM Section 9061-5A states that the Deputy Chief Financial Officer for
Finance shall track the timeliness of receipt of SF 272 reports and should notify the grant

28
   NASA requires the grantees to submit quarterly SF 272 reports to document the funds advanced by
NASA to the grantee, actual grantee expenditures, and planned fund advances.
29
   Grants with commercial entities are based on incurred costs; therefore, a commercial entity is not
required to submit an SF 272 report.
30
   This requirement is contained in Office of Management and Budget Circular A-110, “Uniform
Administrative Requirements for Grants and Cooperative Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations,” and the Grant Handbook.


                                                    10
officer of habitual lateness or impending suspension. NASA uses the Department of
Health and Human Services’31 Payment Management System to suspend or terminate the
advance payments.

Timeliness of SF 272 Reports

We evaluated reports that grantees submitted over a period of four consecutive quarters
(reporting periods) in fiscal year 2000. Fifty-two (58 percent) of the 89 grantees
submitted 2 or more SF 272 reports late, and NASA should have suspended their
advanced financing. NASA took such action for only five grantees.32 In addition, 79 (89
percent) of the grantees submitted untimely SF 272 reports during at least 1 of the 4
reporting periods. The table below shows the results of sampled SF 272 reports for the
89 grantees we examined at the 3 Centers.

                           Grantees’ Submission of SF 272 Reports*
                         for the Fiscal Year Ended September 30, 2000
                    Grantees       Timely All       Late 1 of   Late 2 or             Suspended for
     Center         Reporting      4 Quarters      4 Quarters more Quarters           Late Reporting
     Glenn                    9                1              4                  4                     0
     Marshall                12                1              1                 10                     0
     Goddard                 68                8             22                 38                     5
     Total                   89               10             27                 52                     5

     *
      We reviewed a total of 336 SF 272 reports submitted during 4 consecutive reporting periods for
     the 89 grantees.

Financial management personnel initiated the remedial action for the five grants for
which NASA suspended advance financing but did not notify the grant officer of the
suspension. As a result of this lack of coordination, there was no documentation of the
suspension in the official grant file that could have been used in decisionmaking on
future awards.

Late receipt of the SF 272 reports has been a recurring problem within NASA since at
least 1996, when an independent public accounting firm reported this problem during its
audit of NASA’s financial statements (see Appendix C). Additionally, we determined




31
   NASA uses the Department of Health and Human Services automated system for issuing and tracking
advance payments.
32
   Once a decision to suspend or terminate advance financing is made, the grantee must use its own funds
for its research and then submit to NASA for reimbursement.

                                                     11
during a 1998 audit33 that 847 (49 percent)34 of 1,724 quarterly SF 272 reports sent to 3
NASA Centers and NASA Headquarters were late. As a result of that audit, NASA
amended its FMM in September 1998 to provide for mandatory suspension of advance
funding when two successive quarterly SF 272 reports are late or when two reports are
late within a fiscal year.

Our current audit demonstrated that NASA is not yet actively enforcing timely reporting
and did not take effective remedial action to eliminate late reporting. The lack of
remedial action can be attributed to inadequate controls and management of the
payments. Neither the Centers’ Deputy Chief Financial Officers for Finance nor the
Financial Management Offices collected quarterly information on late submissions for
use in monitoring the timeliness of SF 272 reports and did not notify the grant officers of
untimely reporting so that additional corrective measures could be taken. One Center
financial management official viewed the actions necessary to implement a suspension as
an administrative burden because in many cases, the grantee would have to be reinstated
shortly after suspension.

To facilitate the communication between the Financial Management Office and the grant
officer, the language in the Grant Handbook should be consistent with the FMM
requirements concerning the initiation or suspension of advance financing due to
untimely SF 272 reporting. NASA changed the FMM in September 1998 to define what
constituted untimely SF 272 reporting and clearly provided that the Financial
Management Office was to initiate the suspension or termination of advance funding
when SF 272 reporting problems occurred. The Grant Handbook, however, does not
provide for mandatory suspension or termination of advance funding, leaves the decision
of remedial action to the discretion of a grant officer, and does not specify which NASA
office will take action against late financial reporting. Placing the responsibility for
suspensions with the Financial Management Office (1) recognizes that the financial data
contained in the SF 272 report affects not only the grant, but also NASA’s financial
accounts and financial statements and (2) follows the flow of financial information from
the grantee to the Financial Management Office, which is best suited to identify serious
and habitual reporting problems and to institute immediate remedial action. Therefore,
the Grant Handbook should be revised to make the Financial Management Office
responsible for suspension or termination of advance funding.

Importance of Timely Financial Reporting

Without timely SF 272 reports, NASA is not in compliance with the FMM, cannot
accurately and in a timely manner record financial data, and does not have reliable


33
   On August 6, 1998, we issued audit report IG-98-019, “Aeronautics Program Grant Financial
Transactions,” which discussed late reporting at NASA Headquarters, Langley Research Center, Ames
Research Center, and Glenn. See Appendix C for further details.
34
   The 1,724 SF 272 reports submitted by grantees were funded through letter of credit agreements from
January 1996 to June 1997 at NASA Headquarters, Langley Research Center, Ames Research Center, and
Glenn.

                                                  12
information for decisionmaking. Specifically, NASA is not following the FMM in
relation to recording cost accruals35 for advance-funded grants. Additionally, the late
SF 272 reports negatively affect budgetary and accounting reports. Lastly, NASA's
financial management and program offices did not properly manage noncompliant
grantees or the program’s budget. Management attention and corrective actions are
needed to fully address and correct this problem area that has existed since at least 1996.

Recommendations for Corrective Action

5. The Acting Chief Financial Officer should implement the management controls
   needed to improve the timeliness of SF 272 reporting and follow-up at each
   Center. At a minimum, the controls should:

     •   Require the Center’s Deputy Chief Financial Officer for Finance to collect
         and analyze quarterly information on late SF 272 financial report
         submissions and use this data to enforce the timeliness reporting
         requirements and penalties contained in the FMM.

     •   Require coordination between the Financial Management Office and the
         grant officer when remedial measures are taken against a grantee. The
         Financial Management Office should inform the grant officer in a timely
         manner of any suspension action so that the grant officer can act accordingly
         in administering the grant and in determining future grant awards.

     •   Emphasize and reinforce FMM policy and penalties related to untimely
         reporting.

     •   Evaluate the Center’s corrective actions taken when reports are late, and
         follow up as appropriate.

Management's Response. Concur. The Chief Financial Officer (CFO) agreed to
implement management controls in order to improve the timeliness of SF 272 reporting
and Center follow-up.

To ensure a more consistent and synergistic management approach in this area, the CFO
intends to coordinate efforts with the Assistant Administrator for Procurement. The
Office of the CFO and the Office of Procurement will work together to develop a
measured and cooperative approach toward SF 272 delinquencies, including:

     •   organizing the process for identifying delinquencies;
     •   escalating noncompliance notices to responsible parties within the universities;
     •   coordinating administrative remedies within the Agency; and

35
 The FMM Section 9020 defines accrual accounting as a method of accounting in which revenues and
expenses are identified with specific periods of time and are recorded as incurred without regard to the date
of receipt or payment of cash.

                                                     13
   •   communicating changes in Agency processes to the university community.

The FMM and the Grant Handbook will be revised to reflect this cooperative approach.
The CFO and the Associate Administrator will also distribute a letter to the Centers
emphasizing the importance of this area and communicating the revisions to the FMM
and/or the Grant Handbook. An estimated date for completion of these actions is
December 31, 2002.

One element of appropriate management controls for tracking of SF 272 reporting may
prove to be the use of automated tools, such as the database recently developed and
implemented by Goddard. The Goddard tool generates email notices to grant recipients,
with a progressive series of follow-ups, leading to a suspension of advance payments.
The series of email messages clearly state the importance of timely submission of the
reports and the consequences of noncompliance. The Office of the CFO will monitor
Goddard’s use of this tool and, if this approach is determined to be effective, will ensure
that the tool is shared with the other Centers. The Office of Procurement will participate
in a review of such financial tools. Such tools could immediately email a copy of each
SF 272 report delinquency notice to the grant officer, thus accomplishing coordination
between the financial and procurement offices. An estimated date for assessing the
Goddard tool and disseminating applicable guidance is December 31, 2002.

NASA currently uses the Department of Health and Human Services’ Payment
Management System to provide advance payments to recipients. This system provides
NASA with a standard single payment process for all Centers and recipients. The Office
of the CFO is working with the Department of Health and Human Services to expand and
enhance application of the Payment Management System. Part of this effort involves
utilizing the system’s electronic SF 272 reporting capability. The system will provide
real-time information for NASA and its recipients. When implemented, the system may
not allow recipients to make a drawdown on their letter of credit until a current SF 272
report has been entered into the database. This may be the most effective solution to the
matters raised by the audit report. Implementation of the electronic SF 272 reporting
capability is estimated by December 31, 2003. In the meantime, the CFO will take the
actions discussed above to effect improvement.

Evaluation of Management's Response. Management's planned actions are responsive
to the recommendation. NASA’s evaluation of the process Goddard implemented should
include an assessment of the length of time Goddard’s follow-up process takes and
whether Goddard’s process incorporates proactive notifications to the grantee.
Additionally, coordination between the finance office and the grants office is essential to
effectively monitor the grantee’s financial status. Finally, changes to NASA policy are
necessary because the guidance in the FMM and Grant handbook differs. The
recommendation is resolved but will remain undispositioned and open until corrective
actions are completed.




                                             14
6. The Assistant Administrator for Procurement should revise the Grant Handbook
   to reflect the requirements in the NASA FMM concerning the remedial measures
   for addressing untimely SF 272 financial reporting.

Management's Response. Partially concur. The Assistant Administrator for
Procurement agreed that the Grant Handbook and the FMM should be consistent in this
area. However, the Assistant Administrator did not agree that the Grant Handbook
should be revised to reflect the existing FMM policy. Instead, the Office of Procurement,
in coordination with the CFO, will conduct a detailed review of the Grant Handbook and
the FMM policy to determine what changes, if any, will be needed. As noted in the
response to Recommendation 5, the Assistant Administrator for Procurement and the
CFO will work together to develop a measured and cooperative approach toward SF 272
reporting delinquencies. The FMM and the Grant Handbook will be revised to reflect
this cooperative approach. An estimated date for completion of these actions is
December 31, 2002.

Evaluation of Management's Response. Management's planned actions are responsive
to the recommendation. We continue to reaffirm that it is vital that NASA policy be clear
and consistent in the area of late grantee financial reporting if this long-standing problem
is to be corrected. The recommendation is resolved but will remain undispositioned and
open until corrective actions are completed.




                                            15
              Appendix A. Objectives, Scope, and Methodology

Objectives

The audit objectives were to determine whether NASA:

   •   appropriately performed peer reviews before awarding research grants and
       cooperative agreements.

   •   complied with key requirements for the solicitation, award, and financial
       management of research grants and cooperative agreements.

Scope and Methodology

We initially performed survey work at the Glenn Research Center (Glenn) and NASA
Headquarters, and as a result of our survey results, we expanded our audit work to include the
Goddard Space Flight Center (Goddard) and the Marshall Space Flight Center (Marshall).
We reviewed research grants and cooperative agreements, but did not include Space Act
Agreements and awards involving international parties. Additionally, we focused on grant
and cooperative agreement awards categorized as research in the NASA procurement system
and did not include awards for training or construction.

To accomplish our objectives, we reviewed the Federal and NASA regulations, policies,
and guidance relating to the solicitation, selection, award, and financial management of
NASA-funded grants and cooperative agreements. We interviewed Headquarters and
Center procurement, financial management, and program/project personnel, but we did
not contact the grantees. Also, we reviewed the procurement and financial management
files for the sampled grants and cooperative agreements. We worked closely with
representatives of the Chief Scientist’s office to verify whether the Agency performed peer
reviews for the unsolicited proposals. We did not review the quality of the peer reviews
performed.

We selected a random sample of grants and cooperative agreements at Goddard, Glenn,
and Marshall to be tested. Our sample universe consisted of all on-site open and active
research grants and cooperative agreements coded as being research grants in the NASA
Procurement Management System as of March 30, 2000. Because a grant or cooperative
agreement may cover several years, the population included some grants and cooperative
agreements that had been awarded before 2000 but were still active. We selected 141
grants and cooperative agreements from a total population of 4,970 grants and




                                              16
                                                                                           Appendix A

cooperative agreements. Of the 141 grants sampled (for discussion purposes in the
findings section of the report, we collectively refer to the grants and agreements as
grants), 124 were for research purposes.36 Of the 124 grants, NASA awarded 83 in
response to solicited proposals and 41 in response to unsolicited proposals. For the 124
grants, we reviewed the SF 272 reports that were submitted by 89 different grantees.37
We relied on the NASA Procurement Management System (computer-generated) report
to identify the grant and cooperative agreement population.

Using the sample, we conducted a multiple attribute sample to assess the two audit
objectives. The following table summarizes the population and sample size by Center
and by award type:

                                       Research Grants
                              Population and Sample Selection
                                   As of March 30, 2000
                         Population Sample Population Value                    Sample Value
         Center            Size        Size      (thousands)                   (thousands)
     Goddard
       Grants                   3,648           56            $1,027,385                $ 10,269
       Agreements                 293           34               486,169                  46,404
     Marshall
       Grants                     288            4               102,186                    1,049
       Agreements                  79           11             1,336,297                   38,353
     Glenn
       Grants                     405          10                119,469                   4,022
       Agreements                 257           9                192,945                   7,643
     Total                      4,970         124             $3,264,451                $107,740

Audit Field Work

We conducted detailed audit field work from November 2000 through October 2001. We
performed the audit in accordance with generally accepted government auditing
standards.

36
   We deleted 17 grants from the initial sample of 141 grants drawn from the NASA Procurement
Management System because we determined that they were not for basic and applied research. Instead,
these 17 grants were for purposes such as educational outreach, conference attendance, or miscellaneous
services.
37
   The number of grantees submitting SF 272 reports is lower than the sample number because of the
following: 5 grantees were with commercial entities and were not required to submit the financial reports;
Goddard’s Financial Management Office could not locate 2 grant files; we did not consider 9 grantee files
from Glenn because the sampling criteria we used for the financial reports during the survey differed from
our detailed audit sampling criteria; and 36 grantees had multiple grants within our sample and were
required to submit only one report.

                                                     17
Appendix A

Management Controls Reviewed

We reviewed the following policies and guidance, or portions thereof, related to the
selection and administration of NASA research grants and cooperative agreements:

•   Office of Management and Budget Circular A-110 “Uniform Administrative
    Requirements for Grants and Agreements with Institutions of Higher Education,
    Hospitals, and Other Non-Profit Organizations”;
•   Federal Acquisition Regulation (FAR) and NASA FAR Supplement;
•   NASA Science Policy Guide, dated July 1996;
•   NASA Procedures and Guidelines (NPG) 5800.1, “Grant and Cooperative Agreement
    Handbook,” dated October 19, 2000;
•   Draft NPG 1080, “Guidelines for the Generate Knowledge Process for Programs and
    Projects”;
•   NPG 1441.1C, “NASA Records Retention Schedule 7, Program Formulation
    Records”; and
•   NASA Financial Management Manual.

We identified management control weaknesses as identified in the findings in this report.




                                            18
     Appendix B. Research Grants and Cooperative Agreements
                       Not Peer Reviewed


           Grant               Responsible                 Administering          Grant
          Number1           Headquarters Office              Center               Value
     1   NAG 3 2005         Aerospace Technology               Glenn2              691,000
     2   NAG 3 2207         Aerospace Technology               Glenn                53,000
     3   NAG 3 2235         Aerospace Technology               Glenn               130,000
     4   NAG 3 2236         Aerospace Technology               Glenn                90,000
     5   NCC 3 742          Aerospace Technology               Glenn               107,000
     6   NCC 3 750          Aerospace Technology               Glenn                40,000
     7   NCC 3 756          Aerospace Technology               Glenn               235,000
     8   NCC 3 788          Aerospace Technology               Glenn                48,000
     9   NAG 5 6351             Earth Science                 Goddard3             292,000
    10   NAG 5 6388             Earth Science                 Goddard              148,000
    11   NAG 5 8802              Space Flight                 Goddard              655,000
    12   NCC 5 90               Earth Science                 Goddard            1,245,000
    13   NCC 5 128              Earth Science                 Goddard              961,000
    14   NCC 5 193              Earth Science                 Goddard            1,360,000
    15   NCC 5 326              Earth Science                 Goddard              934,000
    16   NCC 5 377              Space Science                 Goddard               68,000
         Total                                                                  $7,057,000

1
  The research grants are coded “NAG,” and the cooperative agreements are coded “NCC.”
2
  Glenn Research Center.
3
  Goddard Space Flight Center.




                                            19
                         Appendix C. Prior Audit Coverage

“Aeronautics Program Grant Financial Transactions,” NASA Office of Inspector
General Report Number IG-98-019, August 6, 1998. We reviewed the timeliness,
accuracy, and completeness of the financial reports submitted by the grantees for research
affiliated with the Office of Aeronautics and Space Transportation Technology. About 49
percent of the grantees’ quarterly financial (Standard Form 272) reports were late at
Headquarters, Langley Research Center, Ames Research Center, and Glenn Research
Center. This caused delays in recording costs and disbursements into NASA’s financial
records that, in turn, caused costs and disbursements to be inaccurate and untimely, and thus
negatively impacted budgetary and accounting reports. Management used the grant’s
financial data to plan and fund programs and projects. If financial data are not accurate and
current, management’s ability to make informed decisions is compromised. Operating
effectiveness is also diminished by inaccurate and untimely data. In response to our
recommendations, NASA management revised the Financial Management Manual to be
more specific on suspending funding to grantees when the reports are repeatedly late and to
establish a new process in which grantees incur consequences for submitting late reports.

“Federal Research: Peer Review Practices at Federal Science Agencies Vary,”
General Accounting Office Report Number RCED-99-99, March 17, 1999. The
General Accounting Office report defined a peer review, described the Federal
Government’s peer review policy and the peer review practices of 12 Federal agencies
that conduct scientific research, described other agencies’ quality assurance reviews, and
identified which research is not subjected to review. The report states that NASA:

       Defines peer review as scientific evaluation by an independent in-house specialist, a
       specialist outside NASA, or both, of proposals submitted in response to NASA research
       announcements, announcements of opportunity, and cooperative agreement notices. Peer
       review is also used to evaluate unsolicited proposals. Peer reviews evaluate relevance to
       NASA’s objectives, intrinsic merit that includes scientific or technical merit of research
       methods, the researcher's capabilities and qualifications, and cost.

       All NASA research, including research resulting from unsolicited proposals, is subject to
       peer review, and peer review is conducted primarily to award funds on the basis of
       scientific merit. NASA officials said that external peer review is essential for high-
       quality, relevant research. NASA’s Federal Acquisition Regulations Supplements dictate
       that peer review will be the method used to evaluate and select research for funding.
       NASA is developing a series of instruction on the implementation of peer review.

Arthur Andersen LLP’s Management Letter to the Financial Statements for 1996.
Arthur Andersen LLP found that Headquarters and the Goddard Space Flight Center did
not receive the SF 272 reports from the grantees on a timely basis. Specifically, Agency
procedures were not operating effectively to identify and request overdue reports.




                                                  20
Appendix C

This affected NASA’s ability to properly record grant expenses and to effectively
monitor its grants. The report states that NASA should follow established procedures for
tracking reports received from grantees and for follow-up on late reports.




                                           21
Appendix D. Management’s Response




             22
Appendix D




             23
     Appendix D




24
Appendix D




             25
     Appendix D




26
                      Appendix E. Report Distribution

NASA Headquarters

HQ/A/Administrator
HQ/AI/Associate Deputy Administrator
HQ/AA/Chief of Staff
HQ/AB/Associate Deputy Administrator for Institutions
HQ/AS/Chief Scientist
HQ/B/Comptroller
HQ/B/Acting Chief Financial Officer
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/HK/Director, Contract Management Division
HQ/HS/Director, Program Operations Division
HQ/J/Assistant Administrator for Management Systems
HQ/JM/Director, Management Assessment Division
HQ/L/Assistant Administrator for Legislative Affairs
HQ/M/Associate Administrator for Space Flight
HQ/Q/Associate Administrator for Safety and Mission Assurance
HQ/R/Associate Administrator for Aerospace Technology
HQ/S/Associate Administrator for Space Science
HQ/U/Associate Administrator for Biological and Physical Research
HQ/X/Assistant Administrator for Security Management and Safeguards
HQ/Y/Associate Administrator for Earth Science

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/1000/Director, Jet Propulsion Laboratory
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center
LaRC/106/Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Director, John C. Stennis Space Center




                                        27
Appendix E

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         28
                    NASA Assistant Inspector General for Audits
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: Management of Research Grants and Cooperative Agreements

Report Number:                                            Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongly                                 Strongly
                                                          Agree   Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically          5       4       3          2          1       N/A
     organized.
2.   The report was concise and to the point.               5       4       3          2          1       N/A
3.   We effectively communicated the audit                  5       4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to         5       4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




                                                      1
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #     Media
   #   NASA Employee                       #     Public Interest
   #   Private Citizen                     #     Other:
   #   Government:            Federal:              State:         Local:


May we contact you about your comments?

Yes: ______                                    No: ______
Name: ____________________________
Telephone: ________________________

Thank you for your cooperation in completing this survey.




                                           2
Major Contributors to the Report

Chester A. Sipsock, Program Director, Financial Audits, Management and Oversight

V. Richard Dix, Program Manager

Lynette A. Westfall, Auditor-in-Charge

Robert Ameiss, Auditor

Rhodora Posey, Auditor

Daniel K. Birnbaum, Auditor

Nancy C. Cipolla, Report Process Manager

Annette Huffman, Program Assistant
